Nos. 19-368 & 19-369

In the Supreme Court of the United States
FORD MOTOR COMPANY,
v.

Petitioner,

MONTANA EIGHTH JUDICIAL DISTRICT COURT, et al.,
Respondents.
FORD MOTOR COMPANY,

Petitioner,

v.
ADAM BANDEMER,

Respondent.

On Writs of Certiorari to the
Supreme Courts of Montana and Minnesota
BRIEF OF RESPONDENTS
JENNIFER BENNETT
NEIL K. SAWHNEY
GUPTA WESSLER PLLC
100 Pine Street, Suite 1250
San Francisco, CA 94111
(415) 573-0336

DEEPAK GUPTA
Counsel of Record
DANIEL WILF-TOWNSEND
GREGORY A. BECK
LARKIN TURNER
GUPTA WESSLER PLLC
1900 L Street, NW, Suite 312
Washington, DC 20036
(202) 888-1741
deepak@guptawessler.com

Counsel for Respondents
(additional counsel listed on inside cover)
March 30, 2020

KYLE W. FARRAR
WESLEY TODD BALL
MARK BANKSTON
KASTER, LYNCH, FARRAR
& BALL, LLP
1117 Herkimer Street
Houston, TX 77008
(713) 221-8300

DENNIS P. CONNOR
KEITH D. MARR
CONNER & MARR PLLP
520 Third Avenue North
Great Falls, MT 59403
(406) 727-355

Counsel for Respondents

-iQUESTION PRESENTED
Should the due-process standard for establishing
specific personal jurisdiction incorporate a proximatecause requirement derived from tort law, under which a
manufacturer cannot be held to answer in the forum state
for injuries caused in the forum state, by a product that it
regularly sells and markets in the forum state, unless the
first sale of the particular individual item also took place
in that state?

-iiTABLE OF CONTENTS
Question presented ................................................................ i
Table of contents ...................................................................ii
Table of authorities .............................................................. iv
Introduction ........................................................................... 1
Statement ............................................................................... 4
A. Factual background ...................................... 4
B. Procedural history ........................................ 8
Summary of argument........................................................ 10
Argument ............................................................................. 12
I.

Specific jurisdiction over a defendant is
permissible where a plaintiff has been
injured in the forum by a product that the
defendant has systematically marketed,
sold, and serviced in the forum. ........................ 12

II. Ford’s proposed causation test runs
contrary to decades of this Court’s
personal-jurisdiction jurisprudence and
would undermine the values of federalism,
fairness, and predictability that it serves. ...... 22
A. Ford’s proposed causation test runs
contrary to this Court’s cases. ................... 23
B. Ford’s proposed causation rule would
deprive states with the strongest
interest in the controversy of their
ability to protect their injured citizens. ... 27
C. Depriving injured forum residents of
access to their own courts would be
manifestly unfair. ........................................ 34

-iiiD. In even the simplest cases, Ford’s
proposed rule would be unworkable,
unpredictable, and inefficient. ................... 36
1.

Ford’s causation test is subjective,
difficult to apply, and would lead to
unpredictable and inconsistent
results. .................................................. 36

2.

Ford’s rule would lead to wasteful
preliminary and duplicative
litigation. ............................................... 39

III. The consequences Ford attributes to a noncausal relatedness standard are hyperbolic
and avoidable. ..................................................... 42
Conclusion ............................................................................ 45

-ivTABLE OF AUTHORITIES
Cases
Asahi Metal Industry Co. v. Superior Court of
California, Solano County,
480 U.S. 102 (1987) ..................................................44
Blue Shield of Virginia v. McCready,
457 U.S. 465 (1982) ..................................................37
Bristol-Myers Squibb Co. v. Superior Court of
California,
137 S. Ct. 1773 (2017) ..................................... passim
Burger King Corp. v. Rudzewicz,
471 U.S. 462 (1985) ......................................... passim
Cyr v. Ford Motor Co.,
2019 WL 7206100
(Mich. Ct. App. Dec. 26, 2019) ...............................29
Daimler AG v. Bauman,
571 U.S. 117 (2014) ...................................... 14, 18, 39
Dudnikov v. Chalk & Vermilion Fine Arts, Inc.,
514 F.3d 1063 (10th Cir. 2008) ..............................36
Goodyear Dunlop Tires Operations v. Brown,
564 U.S. 915 (2011) ......................................... passim
Gulf Oil Corp. v. Gilbert,
330 U.S. 501 (1947) ..................................................45
Hanson v. Denckla,
357 U.S. 235 (1985) ............................................14, 26

-vHelicopteros Nacionales de Colombia, S.A. v.
Hall,
466 U.S. 408 (1984) ...................................... 17, 23, 25
International Shoe Co. v. State of Washington,
Office of Unemployment Compensation
& Placement,
326 U.S. 310 (1945) ...................................... 19, 22, 43
J. McIntyre Machinery v. Nicastro,
564 U.S. 863 (2011) ......................................... passim
Keeton v. Hustler Magazine, Inc.,
465 U.S. 770 (1984) ......................................... passim
MacPherson v. Buick Motor Co.,
111 N.E. 1050 (N.Y. 1916) ......................................33
McBride v. CSX Transportation, Inc.,
598 F.3d 388 (7th Cir. 2010) ...................................37
Norfolk & Western Railway Co. v. Ayers,
538 U.S. 135 (2003) ..................................................41
Nowak v. Tak How Investments,
94 F.3d 708 (1st Cir. 1996) ......................... 36, 37, 38
Pacific Employers Insurance Co. v. Industrial
Accident Commission of State of
California,
306 U.S. 493 (1939) .................................................. 33
Paulownia Plantations de Panama Corp. v.
Rajamannan,
793 N.W.2d 128 (Minn. 2009). ................................45

-viPennoyer v. Neff,
95 U.S. 714 (1877) ....................................................14
Robinson v. Bridgestone/Firestone North American
Tire, L.L.C.,
703 S.E.2d 883 (N.C. Ct. App. 2011) .....................39
San Diego Gas v. Gilbert,
329 P.3d 1264 (Mont. 2014) ....................................45
Seward v. Minneapolis Street Railroad Company,
25 N.W.2d 221(Minn. 1946) ....................................38
Sinram v. Pennsylvania Railroad Co.,
61 F.2d 767 (2d Cir. 1932) ......................................38
Travelers Health Association v. Commonwealth
of Virginia ex rel. State Corp.
Commission,
339 U.S. 643 (1950) ........................................ 3, 28, 35
Walden v. Fiore,
571 U.S. 277 (2014) ......................................... passim
Watson v. Employers Liability Assurance Corp.,
348 U.S. 66 (1954) ....................................................27
World-Wide Volkswagen Corp. v. Woodson,
444 U.S. 286 (1980) ......................................... passim
Other Authorities
Guido Calabresi,
Concerning Cause and the Law of Torts,
43 U. Chi. L. Rev. 69 (1975) ............................. 37, 38

-viiPeter Campbell,
Why no one knows the source of every car
part—and why it matters, Financial
Times, Feb. 20, 2020 ......................................... 38, 39
David Dayen,
The Infuriating Reason That Car Repairs
Are So Expensive, The New Republic,
Sept. 15, 2015 ........................................................... 20
Norah Freeman Engstrom,
When Cars Crash,
53 Wake Forest L. Rev. 293 (2018) ....................... 13
Ford Motor Company,
10-K Report, U.S. Securities Exchange
Commission (2019), https://perma.cc/79MEV5W9 ........................................................................ 21
Brian A. Garner,
A Dictionary of Modern Legal Usage (2011) ...... 25
John Huetter,
Ford plans to compete on OEM parts,
Repairer Driven News, Feb. 15, 2019 .................. 20
W. Page Keeton, Dan B. Dobbs, Robert E. Keeton,
David G. Owen,
Prosser and Keeton on the Law of Torts
(5th ed. 1984) ...................................................... 36, 37
Howard Latin & Bobby Kasolas,
Bad Designs, Lethal Profits: The Duty to
Protect Other Motorists Against SUV
Collision Risks, 82 B.U. L. Rev. 1161 (2002)......... 6

-viiiBrian McMahon,
The Ford Century in Minnesota
(Univ. of Minn. Press 2016) ..................................... 4
Arthur T. von Mehren & Donald T. Trautman,
Jurisdiction to Adjudicate: A Suggested
Analysis, 79 Harv. L. Rev. 1121 (1966) .......... 25, 35
NPR,
The World’s Oldest Ford Dealer: Minnesota
Family Celebrates a Century of Selling Cars,
June 16, 2003, https://perma.cc/NX2Q-ZB9Z........ 4
Associated Press,
Officials ID Superior woman killed in
Alberton crash, Great Falls Tribune, May 27,
2015 ............................................................................. 7
Restatement (Second) of Conflict of Laws (1969) ..... 32, 33
Restatement (Second) of Torts (1965) .............................. 34
Jean Schurman,
100 years later, Model T is back at Bell McCall,
Bitterroot Star, Oct. 31, 2017................................... 6
Molly Smith & Keith Naughton,
Ford’s Lending Arm Is Generating More
Profit Than Ever, Bloomberg News, Feb. 3,
2020 ....................................................................... 7, 20
Symeon V. Symeonides,
The Choice-of-Law Revolution Fifty Years
After Currie, 2015 U. Ill. L. Rev. 1847 ................. 32

-ixTraffic Safety Facts, National Highway Traffic Safety
Administration, Feb. 2020,
https://bit.ly/2WRACkZ ......................................... 13
Charles A. Wright, et al.,
Federal Practice and Procedure
(3d ed. 2012) ............................................................. 41

-1INTRODUCTION
This Court’s personal-jurisdiction cases have arisen
mainly at the margins, presenting hard questions under
the Due Process Clause about when it is fair and
consistent with federalism to hale someone into a distant
court. But this isn’t a case about a bus accident in France
(Goodyear) or a German company’s actions in Argentina
(Daimler). Nor is this about foreign companies that have
done nothing to target a state (Nicastro, Asahi) or massaction plaintiffs forum shopping far from home (BristolMyers). Instead, the question here is whether a
Minnesotan and a Montanan injured in Minnesota and
Montana can access courts in Minnesota and Montana to
be heard on claims against the company that regularly
marketed and sold, in Minnesota and Montana, the
product that caused their injuries.
Ford proposes that the Court answer that question
by importing into the Due Process Clause a proximatecause standard derived from tort law. Ford is cagey about
its contours. But Ford does make clear that its novel
standard attaches great constitutional significance to the
site of the first sale of the particular widget that caused
injury. On Ford’s view, a state may be rendered powerless
to provide a forum for its citizens who are injured by
products that a manufacturer regularly sells and markets
in the state—even where the injury occurred in the state,
the widget was purchased used in the state, and the
defendant actively cultivated a market in the state for the
same product that caused the injury—if the first sale of
the widget that caused injury happened to have taken
place out of state.
To see what’s at stake, imagine two car accidents.
They involve the same make and model, which the
manufacturer regularly sells in both Utah and Vermont.

-2One accident occurs in Utah, with a car first sold to a
previous owner in Vermont. The other occurs in Vermont,
with a car first sold to a previous owner in Utah.
Naturally, the Utah accident leads to a lawsuit in Utah;
the Vermont accident leads to a suit in Vermont. But
under the rule that Ford seeks, Ford would have a
constitutional right to make the two plaintiffs switch
places, forcing them each to travel to a distant forum that
has no real connection to—or stake in—their case, for no
meaningful benefit to Ford (beyond making it harder for
injured people to sue Ford).
The consequences are not merely hypothetical, and
it’s worth imagining how one might try to explain them to
a non-lawyer. It is roughly 2,000 miles from Superior,
Montana—where the victim in the Montana case lived—
to the Kentucky factory that made the Ford Explorer in
which she died. Ford’s Michigan headquarters is just as
far. Must her estate sue in those distant places? The
victim in the Minnesota accident was just a passenger—
the accident that caused his brain injury involved
someone else’s car. If he alleges a manufacturing defect,
must he sue in Canada, where the car was made? Or
should these two suits have been brought in North Dakota
and Washington State—the sites of the first sales—where
no person, place, or thing related to the claims is located?
And, if so, why? If this is where Ford’s view of the law
takes us, it is time to put on the brakes.
Fortunately, that is not hard to do. Ford’s new rule
has no basis in the text or original public meaning of the
Fourteenth Amendment, and Ford does not argue
otherwise. And nothing in this Court’s modern personaljurisdiction precedents—or the principles of federalism,
fairness, and predictability that have always guided
them—supports Ford’s arbitrary regime. This Court has

-3never held, or even suggested, that a state is
constitutionally prohibited from providing a forum for its
citizens when a defendant has deliberately cultivated a
market for its product in the state and that same product
causes injury in the state. To the contrary, the Court has
recognized that the movement of a manufacturer’s
products “into the forum” after their sale elsewhere may
support “an affiliation germane to specific jurisdiction.”
Goodyear Dunlop Tires Operations v. Brown, 564 U.S.
915, 927 (2011). Thus, when the manufacturer has
cultivated a “market for a product” in certain states, “it is
not unreasonable to subject it to suit in one of those States
if its allegedly defective merchandise has there been the
source of injury to its owner or to others.” Id. (quoting
World-Wide Volkswagen Corp. v. Woodson, 444 U.S. 286,
297 (1980)). That rule controls this case.
Ultimately, any sensible decision here must be
grounded in the principles of federalism, fairness, and
predictability on which all of this Court’s personaljurisdiction jurisprudence rests. It does not respect
federalism to deprive the states of their manifest interest
in providing their citizens a convenient forum for
redressing injuries—particularly when no strong state
interest lies on the other side of the scale. It does not serve
fairness to embrace the “unwisdom, unfairness and
injustice of permitting [plaintiffs] to seek redress only in
some distant state”—particularly when the defendant
does not even claim that facing suit in the forum would be
burdensome. Travelers Health Ass’n v. Com. of Va. ex rel.
State Corp. Comm’n, 339 U.S. 643, 649 (1950). And it does
not further predictability to adopt an elusive proximatecausation standard that is difficult to apply, particularly
given the difficulty (or impossibility) of identifying the
location of the first sale in many cases.

-4STATEMENT
These two consolidated cases arise out of accidents
involving Ford vehicles. The first case was brought in
Minnesota by a Minnesotan who suffered permanent
brain injury because the passenger-side airbag of a Ford
Crown Victoria failed to deploy when the driver (another
Minnesotan) crashed into a snowplow on a rural
Minnesota road. The second case was brought in Montana
by the Montana relatives of a Montana woman who died
after a Ford Explorer lost stability and rolled over into a
ditch beside a Montana highway.
A. Factual background
1. Ford’s activities in Minnesota. Ford is a global
automaker but its Minnesota roots run deep. In 1903, the
world’s first Ford dealership was established in central
Minnesota—it initially sold “Fordmobiles” from a bicycle
shop—and has since been operated by five generations of
the same Minnesota family. NPR, The World’s Oldest
Ford Dealer: Minnesota Family Celebrates a Century of
Selling Cars, June 16, 2003. In 1912, Henry Ford chose
St. Paul, Minnesota as the site of what was then the tallest
assembly plant ever built for manufacturing cars. See
McMahon, The Ford Century in Minnesota (Univ. of
Minn. Press 2016).
Today, Ford deliberately cultivates Minnesota as a
market for its vehicles, both new and used, through a
variety of in-state activities. Its activities include
“substantial marketing” of its cars in the state through
television, print, and online advertisements that directly
target Minnesotans, sponsorships of Minnesota sports
teams and athletic events, and “direct mail
advertisements to residents of Minnesota.” JA 68-69, 73,
19-369 Pet. App. 4a, 39a, 41a. This Minnesota-directed
marketing activity promotes Ford’s brand and assures

-5Minnesotans of the safety of Ford’s vehicles, as well as the
availability of servicing for all Ford cars at authorized
Ford dealers throughout Minnesota. JA 69, 19-369 Pet.
App. 17a, 44a.
Ford has sold more than two thousand 1994 Crown
Victoria cars in Minnesota—the model involved in the
Minnesota accident at issue here. JA 101. There are over
eighty licensed Ford dealerships in Minnesota, each
authorized by Ford to sell both new and used Ford
vehicles. JA 102. Ford guarantees the availability of
repairs in Minnesota, trains and certifies Ford mechanics
in the state, and maintains ongoing consumer warranties
in Minnesota for both new and used Ford cars. JA 73, 75,
78, 79. And, through its Minnesota dealerships, Ford
collects data about its cars’ performance in Minnesota and
uses that data to design its cars and train its mechanics.
JA 79; 19-369 Pet. App. 9a.
2. The Minnesota accident and lawsuit. Adam
Bandemer—a resident of Crow Wing County in central
Minnesota—was riding in the passenger seat of a 1994
Ford Crown Victoria on rural Azalea Road in Minnesota,
on his way to go ice fishing, when the car crashed into a
county snowplow and ended up in a ditch. Id. at 25a.
Because the Ford’s airbag failed to deploy on impact,
Bandemer suffered “lifelong lasting brain injury and
disfigurement.” JA 64. Like Bandemer, the driver and
owner of the car were both Minnesota residents. JA 58,
61.
After the accident, Bandemer sued Ford, as well as
the Minnesota-based driver and owner, in Minnesota
state court. He asserted negligence claims against the
driver and owner and products-liability, negligence, and
breach-of-warranty claims against Ford, alleging that

-6Ford’s “defective airbag system” caused his injuries. JA
60-64. Each claim was brought under Minnesota law.
The Crown Victoria was registered in Minnesota and
had twice been purchased secondhand in Minnesota—
first in 2011 and then again in 2013 by the current owner.
But it turned out that the car was first sold at a Ford
dealership in the neighboring state of North Dakota and
manufactured at a Ford assembly plant in Ontario,
Canada. JA 94, 130-33. Based on these facts alone, Ford
moved to dismiss for lack of personal jurisdiction. Pet.
App. 3a. Solely because the first sale of this particular
Crown Victoria occurred outside Minnesota, Ford argued
that Minnesota’s courts could not exercise specific
jurisdiction over Bandemer’s suit to redress injuries he
suffered in Minnesota as a result of a product that Ford
actively sold and promoted in Minnesota. Id.
3. Ford’s activities in Montana. As in Minnesota,
Ford has long sold its cars in Montana. A Montana dealer
was selling the company’s Model T as early as 1917 and is
still in business. Schurman, 100 years later, Model T is
back at Bell McCall, Bitterroot Star, Oct. 31, 2017. Ford
cultivates the market for new and used Ford vehicles in
Montana—including the Explorer, the vehicle that caused
the rollover accident here. The company has specifically
“marketed and advertised the Ford Explorer in Montana
as a safe and stable passenger-carrying vehicle,” JA 13,
even though the Explorer has a long history of rollover
accidents resulting from its faulty design. JA 10; see Latin
& Kasolas, Bad Designs, Lethal Profits: The Duty to
Protect Other Motorists Against SUV Collision Risks, 82
B.U. L. Rev. 1161, 1196-98 (2002).
Ford sells both new and used Explorers at all of its
thirty-six licensed Ford dealerships in Montana, which
service these Explorers for Montana residents. JA 13. In

-7addition to selling Explorers in Montana, Ford also
maintains ongoing relationships with customers by selling
car parts, earning revenue from loans to Montana
customers and dealers through its captive company Ford
Motor Credit, and “provid[ing] automotive services in
Montana, including certified repair, replacement, and
recall services.” 19-368 Pet. App. 12a; see Smith &
Naughton, Ford’s Lending Arm Is Generating More
Profit Than Ever, Bloomberg News, Feb. 3, 2020. The
company “pervasive[ly] market[s] on multiple platforms
to Montana residents” and accrues “benefits from
Montana consumers buying its products,” new or used. JA
15. For the particular Explorer vehicle that was involved
in the accident in this case, “Ford provided recall services
in Montana for the vehicle, including certified repair and
replace[ment] services.” JA 13.
4. The Montana accident and lawsuit. Twentythree-year-old Markkaya Gullett was a resident of the
mountain town of Superior (population 812), nestled in the
Bitterroot Range in the westernmost part of Montana. JA
10. In 2015, she was driving her Ford Explorer on the
highway near her home when one of its tires suffered a
catastrophic failure. JA 10, 22. The vehicle lost stability
and—because of a defect in the Explorer’s design that
gives it a dangerous tendency to roll over—it rolled into a
ditch, where it came to rest upside down. Id. Gullett was
pronounced dead at the crash scene, just outside
Alberton, Montana. JA 22. She left behind her parents,
husband, and two young daughters—one of whom had
been born just three months before the crash. JA 10-11;
see Officials ID Superior woman killed in Alberton crash,
Great Falls Tribune, May 27, 2015. All are citizens of
Montana.

-8The representative of Gullett’s estate sued Ford, the
tire manufacturer, and other defendants in Montana state
court. JA 10-12. JA 10. The complaint asserted
negligence, defective-design, and failure-to-warn claims.
JA 23-28. Each claim was brought under Montana law.
The particular Explorer that Gullett was driving was
assembled in Louisville, Kentucky, and, while Gullett’s
mother had bought it used in Montana and registered it in
the state, it happened to have been originally sold to an
Oregonian at a Ford dealership in Spokane, Washington.
See JA 41, 48-51; 19-368 Pet. App. 24a. Because this
particular Explorer was originally sold to a third party
outside Montana, Ford moved to dismiss the action for
lack of personal jurisdiction. Id. at 3a.
B. Procedural history
1. The Minnesota Supreme Court’s decision. The
Minnesota Supreme Court found personal jurisdiction
over Ford proper. 19-369 Pet. App. at 3a. The Court first
reviewed Ford’s Minnesota contacts to evaluate the
“‘relationship among the defendant, the forum, and the
litigation.’” Id. at 9a (quoting Walden v. Fiore, 571 U.S.
277, 284 (2014)). It held that Ford’s extensive sales,
marketing, and data-collection efforts “establish that
Ford has purposely availed itself of the privileges,
benefits, and protections of the state of Minnesota.” Id. at
10a.
Next, the Court concluded that Ford’s contacts with
Minnesota were sufficiently related to Bandemer’s claims.
Id. at 15a-18a. “This is not a case where a 1994 Ford
Crown Victoria fortuitously ended up in Minnesota”;
rather, “Ford has sold thousands of such Crown Victoria
cars” in Minnesota. Id. at 16a. The Court highlighted that
“Ford directs marketing and advertisements directly to
Minnesotans, with the hope that they will purchase and

-9drive more Ford vehicles,” and that here a “Minnesotan
bought a Ford vehicle, and it is alleged that the vehicle did
not live up to Ford’s safety claims.” Id. at 17a. The Court
rejected Ford’s proposed causal standard as a “‘radical’
shift in specific personal jurisdiction law.” Id. at 11a-12a.
Finally, the Court held that exercising jurisdiction
was constitutionally reasonable, explaining that
Minnesota has a “strong interest” in adjudicating a suit
about an accident “on a Minnesota road” that involved “a
Minnesota resident as plaintiff and both Ford—a
corporation that does business regularly in Minnesota—
and two Minnesota residents as defendants.” Id. at 19a.
2. The Montana Supreme Court’s decision. The
Montana Supreme Court similarly found jurisdiction
proper over Ford. 19-368 Pet. App. 21a-22a. It first
determined that “Ford purposefully availed itself of the
privilege of conducting activities in Montana, thereby
invoking Montana’s laws.” Id. at 11a. Ford’s in-state
advertising and widespread dealership network, it
explained, “clearly establishes channels that permit it to
provide regular assistance and advice to customers in
Montana” and demonstrates that “Ford serves the
market in Montana and expects consumers to drive its
automobiles” in the state. Id.
The Court next concluded that the plaintiff’s claims
“relate to Ford’s Montana activities,” reasoning that Ford
“advertises, sells, and services vehicles in Montana,” and
“makes it convenient for Montana residents to drive Ford
vehicles by offering maintenance, repair, and recall
services in Montana.” Id. at 14a. “Gullett’s use of the
Explorer in Montana,” the Court wrote, “is tied to” those
activities, which show “a willingness to sell to and serve
Montana customers like Gullett.” Id. at 17a, 19a. In other
words, by “market[ing], sell[ing], and servic[ing] vehicles

-10in Montana,” Ford’s “own actions” showed a “willingness
to sell to and serve Montana customers like Gullett, who
was injured while driving an Explorer in Montana.” Id. at
19a–20a.
Finally, the Court held that jurisdiction over Ford in
Montana was reasonable. Id. at 21a. “Ford’s purposeful
interjections into Montana are extensive,” the Court
explained, and Ford did not contend that it would be
“burdened by defending in Montana.” Id. Montana also
“has a strong interest in adjudicating the dispute”
because “the accident involved a Montana resident and
occurred on Montana roadways.” Id. Moreover, the Court
reasoned, “the controversy may be efficiently resolved in
Montana, as it was the place of the accident.” Id.
SUMMARY OF ARGUMENT
I. This Court has repeatedly made clear that where
(a) a company deliberately cultivates a market for a
product in the forum state and (b) that product causes an
injury in the forum state, the relationship between the
injury and the defendant’s in-state activity is sufficient for
specific jurisdiction. The principles that animate the
relatedness requirement—fair warning and reciprocal
obligation—strongly weigh in favor of jurisdiction in this
paradigmatic scenario, regardless of where the particular
widget that caused injury in the forum happened to have
first been sold.
II.A. Ford urges this Court to disregard seven
decades of precedent and craft a new requirement under
which a plaintiff, as a prerequisite to specific jurisdiction,
must prove the existence of a causal relationship between
the defendant’s in-state actions and the plaintiff’s injury.
Ford identifies no basis for such a requirement in the
Constitution or this Court’s cases. For 75 years, the Court
has consistently held that a plaintiff’s injuries must “arise

-11out of or relate to” a defendant’s contacts with the forum.
Ford’s rule would jettison half of that formulation and, in
so doing, would contravene this Court’s precedent.
B. Ford’s causal rule would undermine federalism
by denying jurisdiction to the states with the most at
stake in cases like this, while granting jurisdiction to
states with only a minimal interest at best. Ford tries to
dismiss these concerns as irrelevant. But Ford is asking
this Court to create—and constitutionalize—a novel
requirement for personal jurisdiction. This Court, in
evaluating Ford’s proposal, cannot ignore the federalism
interests that it has consistently held underpin its
personal-jurisdiction jurisprudence. Ford identifies no
state with a greater interest than the state where the
victim was injured, and no overreach by the forum states
beyond their valid regulatory power. And, regardless of
whether Ford’s causal rule is adopted, Ford’s liability in
these cases (and that of defendants in similar cases) will
not vary significantly, for liability will generally be
governed by the substantive law of the place where the
injury occurs.
C. Ford’s rule would also undermine another core
due process value—fairness—by denying citizens access
to courts where they are injured, without any countervailing benefit to Ford. Ford suggests that only a causal
rule would ensure “fair warning” of where it may be sued.
But Ford already has warning that it will be sued over a
defective product in a state where it extensively markets
and sells that product.
D. Ford’s rule would also undermine predictability
by importing an elusive standard from tort law into
personal jurisdiction. Proximate cause is notoriously hard
to pin down, even in the tort context. In the personal
jurisdiction context, it will often be impossible. These

-12difficulties will be compounded by the need to track down
the first sale of a widget under Ford’s first-sale rule—a
task that will often prove impossible. Ford’s rule will lead
to preliminary litigation to track down locations that are
ultimately irrelevant to the merits and wasteful,
duplicative litigation of multi-party disputes that were
previously heard in one place.
III. Ford’s policy concerns are meritless. The status
quo already provides fair warning, adheres to territorial
limitations, and upholds the distinction between specific
and general jurisdiction. And existing doctrines—the
reasonableness requirement, choice of law, and forum
non conveniens—protect defendants from aggressive
exercises of state-court jurisdiction. In any event, Ford’s
policy complaints are better addressed through the
democratic process than by revision of the Due Process
Clause.
ARGUMENT
I.

Specific jurisdiction over a defendant is
permissible where a plaintiff has been injured in
the forum by a product that the defendant has
systematically marketed, sold, and serviced in the
forum.

A. For seven decades, this Court’s modern
precedents—from International Shoe to Bristol-Myers
Squibb—have established that, where a defendant “has
purposefully directed [its] activities at residents” of a
forum state, and “litigation results from alleged injuries
that arise out of or relate to those activities,” the “forum
State does not exceed its powers under the Due Process
Clause if it asserts personal jurisdiction” over the
defendant. Burger King Corp. v. Rudzewicz, 471 U.S. 462,
472-73 (1985). This Court has also made clear that this
principle captures the cases at hand: Where a

-13manufacturer like Ford sells its product in a state “not
simply [as] an isolated occurrence” but as an effort to
cultivate a “market for its product,” “it is not
unreasonable to subject it to suit” in the state “if its
allegedly defective merchandise has there been the source
of injury to its owner or to others.” World-Wide
Volkswagen, 444 U.S. at 297-98.
As a result, cases with facts like those presented here
have long been ones where personal jurisdiction over the
defendant is a given. Every year, there are more than six
million police-reported car crashes in the United States,
resulting in more than 35,000 fatalities and injuries to over
two million people. See Traffic Safety Facts, National
Highway Traffic Safety Administration, 1-3, Feb. 2020,
https://bit.ly/2WRACkZ. About half the people injured in
motor-vehicle accidents attempt to seek compensation,
resulting in one of the most common types of litigation
faced by the courts, and some fraction of them seek
damages against manufacturers of cars, tires, or parts
that have contributed to their injuries. See Engstrom,
When Cars Crash, 53 Wake Forest L. Rev. 293, 299-302
(2018). Yet Ford cannot find any case from any state or
federal appellate court invoking its causal theory to find
personal jurisdiction lacking over an automaker, tire
manufacturer, or other defendant whose product injures
the plaintiff in a state where the manufacturer routinely
sells that product.
There is good reason for this: It would mark an
abrupt departure from settled law. In the century and a
half since the Fourteenth Amendment was ratified, this
Court has never deployed the Due Process Clause to
deprive a state of its ability to provide its own injured
citizens with a forum for redress when those citizens have
been injured in the state by products that a defendant has

-14routinely promoted and sold in the state. Under the
Pennoyer regime that governed after the Fourteenth
Amendment was adopted, state courts had the power to
adjudicate claims against non-resident defendants who
had property in the state, and could provide redress for
their citizens up to the value of that property. Pennoyer
v. Neff, 95 U.S. 714, 722-24 (1877). Under the modern
International Shoe regime, suits like these have long
been understood to be consistent with “fair play and
substantial justice.” Int’l Shoe Co. v. Wash., Office of
Unemployment Comp. & Placement, 326 U.S. 310 (1945).
Ford offers no sound reasons to depart from this settled
understanding, and due process does not require it.
In evaluating whether exercising specific jurisdiction
over a defendant is permissible, this Court has long held
that courts must examine “the relationship among the
defendant, the forum, and the litigation.” Walden, 571
U.S. at 284. It is this focus that distinguishes specific or
case-linked jurisdiction from general or all-purpose
jurisdiction (which permits “any and all claims” against
the defendant, “wherever in the world the claims may
arise,” Daimler AG v. Bauman, 571 U.S. 117, 121 (2014)).
For specific jurisdiction to comport with due process,
this Court has consistently held that three
requirements—known collectively as the minimumcontacts test—must be satisfied. First, the “constitutional
touchstone” is whether the defendant has “purposefully
avail[ed] itself of the privilege of conducting activities
within the forum state, thus invoking the benefits and
protections of its laws.” Burger King, 471 U.S. at 474-75
(quoting Hanson v. Denckla, 357 U.S. 235, 253 (1985)).
Second, “there must be ‘an affiliation between the forum
and the underlying controversy, principally, an activity or
an occurrence that takes place in the forum state and is

-15therefore subject to the State’s regulation.’” BristolMyers Squibb Co. v. Superior Court of California, 137 S.
Ct. 1773, 1780 (2017) (quoting Goodyear, 564 U.S. at 919).
This second requirement has also been phrased “[i]n
other words” as a rule that the lawsuit at issue “must arise
out of or relate to the defendant’s contacts with the
forum.” Id. Third, jurisdiction must be reasonable. A
defendant may still defeat jurisdiction by “present[ing] a
compelling case that the presence of some other
considerations would render jurisdiction unreasonable”
given concerns of “fair play and substantial justice.”
Burger King, 471 U.S. at 476-78.
B. With respect to the first requirement, there is no
question that Ford has purposefully availed itself of the
privilege of conducting activities in Montana and
Minnesota. It “has continuously and deliberately
exploited” both states’ markets for decades. Keeton v.
Hustler Magazine, Inc., 465 U.S. 770, 781 (1984). Ford
advertises, markets, sells, and services tens of thousands
of new and used vehicles in each state—including the
particular model and year of the cars involved in both
accidents. Ford “makes it convenient for [Montana and
Minnesota] residents to drive Ford vehicles by offering
maintenance, repair, and recall services” in both states.
19-368 Pet. App. 17a. Such “continuing and wide-reaching
contacts,” established “purposefully” outside of Ford’s
home state, are more than enough to support jurisdiction.
Walden, 571 U.S. at 285 (quoting Burger King, 471 U.S.
at 479-80).
There is also no question that jurisdiction here would
satisfy the third requirement. Ford makes no argument,
let alone “a compelling case,” that “other considerations
would render jurisdiction unreasonable.” Burger King,
471 U.S. at 477-78. Both Minnesota and Montana have a

-16“manifest interest” in providing their residents with a
convenient forum for redressing injuries inflicted by outof-state actors. Burger King, 471 U.S. at 473. Minnesota
and Montana were the sites of the accidents and home to
everyone involved. Ford identifies no state with a
stronger interest. And it would be absurd for Ford to even
suggest that it would suffer any hardship from litigating
these cases in either state.
C. Conceding these points, Ford focuses exclusively
on the second requirement of relatedness. It urges this
Court to adopt the following rule: Even where a defendant
has marketed and sold a product in the forum
continuously for years and a plaintiff is injured by that
product in the forum, specific jurisdiction is nonetheless
foreclosed if the first sale of the specific item involved
happened to have been made to a third party outside the
forum. Pet. Br. 18-22. Neither this Court’s modern
precedent nor the original understanding of the Due
Process Clause supports this novel interpretation of the
relatedness requirement.
To the contrary, this Court has repeatedly made clear
that where (a) a company has deliberately cultivated a
market for a product in a forum state, and (b) that product
causes an injury in the forum state, the relationship
between the injury and the defendant’s conduct—same
product, same state—is sufficient to provide a basis for
personal jurisdiction. As the Court put it in World-Wide
Volkswagen: “[I]f the sale of a product of a manufacturer
or distributor such as [a car company] is not simply an
isolated occurrence, but arises from the efforts of the
manufacturer or distributor to serve directly or indirectly,
the market for its product,” then “it is not unreasonable
to subject it to suit” in a state “if its allegedly defective

-17merchandise has there been the source of injury to its
owner or to others.” 444 U.S. at 297.
Ford attempts to discredit this passage as “dicta,” as
if it were some stray musing not reflected in subsequent
cases. Pet Br. 34. But that aspect of World-Wide
Volkswagen’s reasoning has been a repeated touchstone
of this Court’s personal-jurisdiction cases for the past four
decades. Many times, this Court has used this example
from World-Wide Volkswagen—of in-forum injuries
caused by a product that the manufacturer routinely sells
in the forum—as the paradigmatic instance of an
appropriate exercise of specific jurisdiction.
It first did so in Keeton v. Hustler Magazine, invoking
World-Wide Volkswagen’s language to hold that where a
company “has continuously and deliberately exploited” a
state’s markets, “it must reasonably anticipate being
haled into court there in” actions that are “based on” the
products it regularly sells in those markets. 465 U.S. at
781. Then, in Burger King, the Court reaffirmed the
relevant passage of World-Wide Volkswagen, explaining
that when a company regularly sells products in a forum
state “and those products subsequently injure forum
consumers,” in-state litigation satisfies both the
requirements that a company have “purposefully
directed” its activities at the forum and that “the litigation
results from alleged injuries that ‘arise out of or relate to’
those activities.” 471 U.S. at 472-73 (quoting Helicopteros
Nacionales de Colombia, S.A. v. Hall, 466 U.S. 408, 414
(1984)).
More recently, this Court’s opinions have continued
to highlight this fact pattern as a benchmark to
distinguish specific jurisdiction from general jurisdiction.
In Goodyear, 564 U.S. at 927, the Court’s unanimous
opinion did so by quoting and reaffirming the key passage

-18from World-Wide Volkswagen. That same day, in J.
McIntyre Machinery v. Nicastro, 564 U.S. 863 (2011),
despite the differing approaches in that case, nobody
questioned Justice Ginsburg’s straightforward reading of
World-Wide Volkswagen: “[T]he Court’s opinion,” she
explained, “indicates that an objection to jurisdiction by
the manufacturer” there “would have been unavailing”—
even though the car at issue had been originally been sold
in a different state. (Ginsburg, J., dissenting). Three years
later, in Daimler AG, 571 U.S. at 127 n.5, the Court’s
opinion once again offered this same basic scenario as the
textbook example of specific jurisdiction: “a California
plaintiff, injured in a California accident involving a
Daimler-manufactured vehicle” who has “sued Daimler in
California court alleging that the vehicle was defectively
designed.”
None of these cases has ever suggested that the
exercise of jurisdiction in this paradigmatic scenario
should depend on where the particular item was originally
sold to a third party not before the court, as opposed to
where the defendant has regularly sold the product and
where the accident and the injuries occurred.
D. And with good reason: The principles this Court
has articulated as justifying the relatedness requirement
all weigh strongly in favor of exercising jurisdiction in
these cases regardless of the site of first sale.
First, relatedness serves to ensure that defendants
have “fair warning that a particular activity may subject
[them] to the jurisdiction of a foreign sovereign.” Burger
King, 471 U.S. at 472. The purposeful-availment
requirement, on its own, would not give defendants notice
of what “particular” acts form a basis for jurisdiction over
specific types of claims. Id.

-19As this Court’s precedent makes clear, this “fair
warning” function is easily satisfied here. Where a
company like Ford has cultivated a market in a particular
state by regularly selling its products there “with the
expectation that they will be purchased by consumers,” it
has “fair warning” that it will be subject to suit if identical
“products subsequently injure forum consumers.” Burger
King, 471 U.S. at 472-73. There is no dispute that Ford
has a reasonable expectation of being haled into court in
Montana and Minnesota for injuries in those states
resulting from accidents caused by defects in the cars at
issue here. Ford knows that Montanans and Minnesotans
will bring these cars into their states, and will purchase
them used in their states—Ford makes every effort to get
them to do so.
Second, the relatedness requirement serves to ensure
that a state has the power to hold out-of-state
corporations accountable only for “the obligations which
[they have] incurred there.” Int’l Shoe, 326 U.S. at 320.
The relationship between a defendant’s obligations and
the state’s power has grounded specific jurisdiction since
International Shoe, which explained that, “to the extent
that a corporation exercises the privilege of conducting
activities within a state, it enjoys the benefits and
protection of the laws of that state.” Id. at 319. That
enjoyment, in turn, “may give rise to obligations,” and it
can “hardly be said to be undue” to “require[] the
corporation to respond to a suit brought to enforce” those
obligations “so far as those obligations arise out of or are
connected with the activities within the state.” Id.
Ford’s obligations to the states of Montana and
Minnesota and their citizens ground the exercise of
jurisdiction here. There can be no doubt that Ford has
enjoyed the “benefits and protection” of both states’ legal

-20systems, which have created a market for its products,
protected its property, and enforced its contracts for
decades. Ford invests great effort into ensuring not only
that Minnesotans and Montanans will buy its new cars but
also that Ford will have a continuing relationship with
anyone who drives a Ford vehicle, ensuring that people
will drive its cars long after the first sale. To that end, it
has actively encouraged and benefited from the market
for resale, servicing, and parts of Ford vehicles in
Minnesota and Montana. JA 13, 100-102. It lends its
dealers money to buy and resell used cars, see Smith &
Naughton, Ford’s Lending Arm; it lends consumers
money to purchase used cars, id.; and it profits from
selling aftermarket parts and accessories to its dealers
and through distributors. Ford 10-K Report at 2, 27
(2019). And, when it sells new cars, Ford sells them at
lower prices—and can even plan the obsolescence of their
parts—knowing it will recoup costs over the life of the car
through sales of parts, by virtue of its continuing
relationships with car owners. See Dayen, The
Infuriating Reason That Car Repairs Are So Expensive,
The New Republic, Sept. 15, 2015. As a Ford executive
explained, when Ford sells a car, it effectively tells
consumers: “‘[W]e’re gonna back that car up, and oh yes,
we would like you to use original equipment Ford parts on
those cars.’” Huetter, Ford plans to compete on OEM
parts, Repairer Driven News, Feb. 15, 2019.
In turn, Ford has subjected itself to the basic
obligation not to injure each state’s residents through
negligence in the design or manufacture of its products.
In these cases, citizens of Montana and Minnesota injured
by Ford cars in each state seek to hold Ford to those
obligations. Ford’s “continuing relationships and
obligations with citizens” of Minnesota and Montana,
Burger King, 471 U.S. at 473, are not annulled simply

-21because the very products it regularly sells and services
in Minnesota and Montana, in these particular instances,
happened to arrive in each state as part of a used-car sale
rather than a first sale.
Ford’s primary argument to the contrary is circular.
Ford argues that “[i]f a plaintiff’s claim would be the same
whether or not the defendant engaged in any in-state
activity,” then it cannot be “suit-related.” Pet. Br. 13. But
that is just a restatement of its assertion that the only kind
of “relationship” that matters is a rigid, provably causal
relationship. Id. at 14. In contrast, the principles
underlying
this
Court’s
personal-jurisdiction
jurisprudence demonstrate the reason why Ford’s
contacts in Minnesota and Montana are relevant to the
claims here: they created a market for Ford’s cars in those
states, thereby generating obligations between Ford and
the citizens of each state. The consequence of those
obligations is that Ford must have “reasonably
anticipate[d] being haled into court” in actions in either
state “based on” the products it has sold in those markets
and the cars that it intentionally encouraged the residents
of those states to purchase and use. Keeton, 465 U.S. at
781. In any event, Ford has no basis for confidently
asserting that the plaintiffs’ claims here “would be the
same” regardless of Ford’s in-state activity, given that
Ford has gone to great lengths to encourage Minnesotans
and Montanans to purchase new and used Ford cars and
drive Ford cars in these states.

-22II. Ford’s proposed causation test runs contrary to
decades of this Court’s personal-jurisdiction
jurisprudence and would undermine the values of
federalism, fairness, and predictability that it
serves.
Ford (at 43) urges this Court to disregard decades of
its personal-jurisdiction jurisprudence and craft a new
“proximate-cause requirement” under which a plaintiff
must prove the existence of a causal relationship between
the defendant’s in-state actions and the plaintiff’s injuries
as a prerequisite for specific jurisdiction. But, as the
Solicitor General points out, “Ford fails to identify any
basis in this Court’s cases for such a requirement,” which
would for the first time “require plaintiffs to show that the
defendant’s acts [in the forum] caused their injuries.” U.S.
Br. 31. Ford is coy about what circumstances would
satisfy this new causal test. But it makes clear that, on its
view, a state may be rendered powerless to provide a
forum for its citizens who are injured by products that a
manufacturer regularly sells and markets in the state—
even where the injury occurred in the state, the widget
was purchased used in the state, and the defendant
actively cultivated a market in the state for the same
product that caused the injury. Adopting such a rule
would radically reshape the jurisdictional landscape.
Ford makes no attempt to ground its novel rule in the
original meaning of the Due Process Clause or AngloAmerican legal tradition. And it cannot. Nor does Ford’s
rule have any firmer footing in the principles of
federalism, fairness, and predictability that animate this
Court’s modern personal-jurisdiction jurisprudence.
Ford’s rule undermines each one of these principles,
cutting against the core due process interests that the
Fourteenth Amendment protects.

-23A. Ford’s proposed causation test runs contrary
to this Court’s cases.
Since International Shoe, this Court has consistently
held that specific jurisdiction may rest on “an affiliation
between the forum and the underlying controversy,
principally an activity or an occurrence that takes place in
the forum state and is therefore subject to the State’s
regulation.” Bristol-Myers Squibb, 137 S. Ct. at 1780. The
Court has often phrased this as a requirement that the
suit “must arise out of or relate to the defendant’s contacts
with the forum.” Id.
The crux of Ford’s argument appears to be that this
Court’s use of the words “arising out of,” and similar
language, is enough to read a rigid causation test into
decades of precedent—even though this Court has never
created one, and has expressly and repeatedly phrased
the standard as one that does not require causation. Ford.
Br. 18. In isolation, the phrase “arising out of” does
suggest a causal relationship. But this Court has never
limited the minimum-contacts test to cases in which
plaintiffs can prove that their injuries “aris[e] out of” the
defendant’s forum contacts. Since it adopted its modern
approach to personal jurisdiction, this Court has
consistently held that the test is satisfied when the
plaintiff’s claims “arise out of or are connected with” those
contacts. Int’l Shoe, 326 U.S. at 319 (emphasis added). For
almost three-quarters of a century, the Court has
consistently phrased the test in the disjunctive. See
Bristol-Myers, 137 S. Ct. at 1780 (“arise out of or relate
to”); Goodyear, 564 U.S. at 919 (“deriving from, or
connected with”); Burger King, 471 U.S. at 472 (“arises
out of or relates to”); Helicopteros, 466 U.S. at 414
(“related to or arises out of”). The phrase “related to”
contrasts with “arising from” precisely because only the

-24latter connotes a causal link. Thus, the apparent reason
that the Court has included the two phrases together time
and again is to draw that contrast and avoid insisting that
plaintiffs satisfy an inflexible causal test.
This Court has unanimously recognized that, even
when products are first sold outside the forum and then
brought into the forum, a manufacturer’s efforts to
cultivate “the market for its product” in the forum and
encourage the “flow of a manufacturer’s products into the
forum” can constitute “an affiliation germane to specific
jurisdiction.” Goodyear, 564 U.S. at 927 (emphasis added)
(citing World-Wide Volkswagen, 444 U. S., at 297). By its
terms, and in practice, the relatedness inquiry has never
required a plaintiff to prove that some discrete act taken
by the defendant in the forum was the cause of the
plaintiff’s injury. Instead, jurisdiction may be premised on
a defendant’s “course of conduct directed at the society or
economy existing within the jurisdiction of a given
sovereign.” Nicastro, 564 U.S. at 884 (plurality opinion)
(emphasis added). As the Solicitor General points out, the
Court’s cases have never insisted that an injured plaintiff
must try to prove that a “particular advertisement” in
Minnesota, or the availability of service and parts at
authorized Ford dealerships in Montana, for example,
“influenced the customer’s decision to make the particular
purchase” of a particular used Ford vehicle. U.S. Br. 30.
“Nothing in this Court’s cases supports that blinkered
and inflexible approach.” Id. That the plaintiff has been
injured in the forum by a product that the defendant
regularly sells, promotes, and services in the forum is
enough.
Ford makes no real effort to dispute the conclusion of
the courts below that the claims here, at the very least,
“relate to” Ford’s active cultivation of a market for its

-25products in the forum states. Instead, as Ford
acknowledges (at 36-37), it seeks to jettison half of the
Court’s longstanding standard for relatedness.
Quoting a treatise on statutory interpretation, Ford
contends (at 37) that “arising out of” and “related to”
should be treated as merely “synonymous” because
“[d]oublets and triplets”—synonymous phrases like “able
and willing” or “last will and testament”—“abound in
legalese.” But such phrases are always conjunctive, not
disjunctive. See Garner, A Dictionary of Modern Legal
Usage 293-94 (2011) (providing over 170 examples of such
phrases in legal usage, all with the conjunctive “and”). So
Ford’s point about legal usage actually cuts the other
way—it shows that the Court has consistently used the
disjunctive formulation to distinguish two separate
concepts. Moreover, the Court’s use of the specific phrase
“arising out of or related to” originates in an influential
law-review article that emphasized the full breadth of the
disjunctive phrase. See Helicopteros, 466 U.S. at 414 n.8
(citing von Mehren & Trautman, Jurisdiction to
Adjudicate: A Suggested Analysis, 79 Harv. L. Rev. 1121
(1966)). The article itself made this disjunction even more
emphatic: “In the case of specific jurisdiction, the
assertion of power to adjudicate is limited to matters
arising out of—or intimately related to—the affiliating
circumstances on which the jurisdictional claim is based.”
von Mehren, Jurisdiction to Adjudicate, 79 Harv. L. Rev.
at 1144-45. The Court’s test is not mere verbal excess. A
test that has been reaffirmed by this Court over seven
decades, and that has engendered substantial reliance
and legal development in the lower courts, should not be
cast aside on so flimsy a basis.
Ford also suggests (at 30-32) that this Court in
Bristol-Myers altered its longstanding formulation of the

-26personal-jurisdiction test. But although the petitioner
there asked this Court to adopt a causation requirement,
based on arguments indistinguishable from those made
by Ford here, the Court declined that invitation. Pet. Br.
in Bristol-Myers 14-37. Rather, it applied “settled
principles of personal jurisdiction” to the facts. See
Bristol-Myers, 137 S. Ct. at 1783; see also id. at 1788 (J.
Sotomayor, dissenting) (noting the lack of a “rigid
requirement that a defendant’s in-state conduct must
actually cause a plaintiff’s claim”). In doing so, BristolMyers reiterated the “arise out of or relate to” test,
alternately describing the required relationship as a
“connection” or “affiliation” between the claims and the
forum state. Id. at 1780, 1781. The Court repeatedly
emphasized that the reason this required affiliation was
not present in that case was because “[t]he relevant
plaintiffs [were] not California residents and [did] not
claim to have suffered harm in that State.” Id. at 1782.
Ford has no better luck attempting (at 37) to ground
its proposed causal approach in cases decided before
Bristol-Myers. Ford’s arguments on this score all conflate
the purposeful-availment and relatedness inquiries. In
Walden, for instance, specific jurisdiction was lacking
because the defendant “never traveled to, conducted
activities within…or sent anything or anyone to” the
forum state—in other words, the defendant did not
purposefully avail himself of the forum state. 571 U.S. at
277. Likewise, the defendant in Hanson had “no office[s],”
“transact[ed] no business,” and had never “solicit[ed]
business in that state.” 357 U.S. at 251. In such cases,
there is no need to ask whether nonexistent contacts
relate to the suit. And in cases where there was a causal
relationship between a defendant’s in-state contacts and
the suit, there was no need to go beyond a causal
relationship to explore the boundaries of other kinds of

-27connections that might also satisfy due process. This
Court has never articulated the rule that Ford seeks to
represent as the status quo and has instead consistently
articulated a different standard.
B. Ford’s proposed causation rule would deprive
states with the strongest interest in the
controversy of their ability to protect their
injured citizens.
Although Ford purports to ground its causal rule in
principles of federalism, its rule actually undermines
federalism. It would deny jurisdiction to the very states
with the most at stake in these cases, while granting
jurisdiction to states with only an attenuated interest at
best.
1. Ford brushes aside both the states’ important role
in the federal system and their legitimate authority to
protect their citizens from injury within their borders.
Ford goes so far as to assert (at 40) that the interest of a
sovereign state in “protecting its residents from
dangerous products that are marketed and sold there”—
and that injure those residents within the state’s
borders—is “irrelevant” to the question before the Court.
That is wrong. A state “has a ‘manifest interest’ in
providing its residents with a convenient forum for
redressing injuries inflicted by out-of-state actors.”
Burger King, 471 U.S. at 473; see also Watson v.
Employers Liab. Assur. Corp., 348 U.S. 66, 73 (1954)
(noting the states’ “legitimate interest in safeguarding the
rights of persons injured there”). Thus, although BristolMyers held that California lacked personal jurisdiction
over the claims of non-resident plaintiffs who did “not
claim to have suffered harm in that State,” it never
questioned that the state had jurisdiction over the claims
of plaintiffs who lived, and were injured, in the state. 137

-28S. Ct. at 1782. And this Court’s cases have long held that
“it is beyond dispute that” each state “has a significant
interest in redressing injuries that actually occur within
the State.” Keeton, 465 U.S. at 776.
Ford’s rule would call into question not just the states’
authority to provide a forum for injured residents, but
also their authority to directly enforce their own laws.
States have a strong interest in ensuring “faithful
observance” of the law within their borders—an interest
that is particularly powerful when enforcement is
necessary to protect citizens from dangerous products in
the state. Travelers Health Ass’n, 339 U.S. at 648. The
importance of that interest does not depend on whether
the manufacturer sells the products directly in the forum
or to an out-of-state distributor. If, for example, a state’s
citizen is injured by a nutritional supplement falsely
marketed by the manufacturer in the state as safe, the
state should not be foreclosed from investigating and
prosecuting the manufacturer just because the citizen
happened to have bought the particular bottle online from
a distributor in another state. If the manufacturer
regularly markets the supplement in the forum, the state
has a compelling interest in protecting its citizens from its
harmful effects.
Ford responds to these concerns by arguing that a
state’s interest is relevant only to the final step of the
constitutional test, which asks whether the state’s
exercise of jurisdiction is reasonable. Pet. Br. 40. That
misses the point. Ford is asking this Court to create a new
threshold requirement for personal jurisdiction that
would limit states’ power to adjudicate matters of
compelling interest to them. In evaluating Ford’s
proposed test, this Court cannot ignore the federalism
interests that animate its personal-jurisdiction

-29jurisprudence—a fact that Ford implicitly recognizes
when it argues (incorrectly) that a strict causation
requirement is necessary to serve those interests.
2. To be sure, a state’s jurisdiction over particular
claims may be limited to the extent that assertion of its
regulatory interests interferes with the legitimate
interests of other states. Due process ensures that states
“do not reach out beyond the limits imposed on them by
their status as coequal sovereigns in a federal system.”
World-Wide Volkswagen, 444 U.S. at 292. But Ford has
pointed to no state that has an interest in these cases
greater than the states where the plaintiffs reside and the
accidents occurred, and in which Ford regularly markets
and sells the allegedly defective vehicles.
Ford suggests (at 41) that courts in the places where
it assembles cars—here, Ontario, Canada and Louisville,
Kentucky—may properly exercise personal jurisdiction
based on their “interest in preventing the manufacture of
harmful products within [their] borders and in not
allowing companies to use [their] resources to do so.” And
it says that Michigan, where it designs its cars, may
exercise jurisdiction for similar reasons. But although
those states may have some interest in regulating the
production of dangerous goods built for sale out of state,
that interest is not more significant than the interest of
the states whose citizens the products actually injure or
kill. The state of injury has the strongest interest in
regulating dangerous products—an interest rooted in
protecting its citizens from harm.
Ford itself has acknowledged this principle—and
recently used it to secure the dismissal of numerous
plaintiffs’ breach-of-warranty and fraud claims brought
against it in its home state of Michigan. See Cyr v. Ford
Motor Co., 2019 WL 7206100 (Mich. Ct. App. Dec. 26,

-302019). Ford asked for the claims to be dismissed on forum
non conveniens grounds. The court agreed with Ford that
the plaintiffs’ “respective places of domicile provide
appropriate alternate fora.” Id. at *4. Although Michigan
“may have a vested interest in adjudicating” claims
against Ford, the court wrote, “the nonresident plaintiffs’
home jurisdictions have at least an equal stake in
adjudicating controversies that affect their citizens’
rights.” Id. at *7.
Moreover, Ford seems to acknowledge (at 41) that the
necessary implication of its argument is that the states
where it originally sold the cars at issue—Washington and
North Dakota—could exercise jurisdiction over these
cases. But the fact that Ford originally sold the cars to
third parties there is pure happenstance. Ford’s causation
test, in other words, would deny jurisdiction to the states
with the most significant interest in these cases while
granting it to states that lack much, if any, interest.
As a result, the application of Ford’s rule leads to
arbitrary outcomes. Under Ford’s first-sale rule, a
Montana resident who bought a new Explorer in Montana
could bring suit there for injuries suffered in an accident
in the state, but a neighbor who purchased an identical
used Explorer, and who suffered identical injuries in the
state, could not bring the same claim if the car’s first sale
occurred elsewhere.
Not only that, but even injured bystanders who have
never left Montana—or passengers like Mr. Bandemer
who had nothing to do with the car’s purchase—would be
forced to sue in a distant forum with which they have no
connection, and which has no interest in the controversy,
based only on the coincidence that Ford once sold the car
there to someone else. No legitimate purpose would be

-31served by these bizarre results. And due process does not
command them.
3. The substantial limit on states’ sovereign powers
that Ford advocates is not justified by any countervailing
federalism concerns. Even without a causation
requirement, the existing specific-jurisdiction test
already imposes sensible limits on a state’s power to reach
beyond its borders. In products-liability cases like those
here, purposeful availment exists only if the defendant
“can be said to have targeted the forum”—that is, if the
defendant “has followed a course of conduct directed at
the society or economy existing within the jurisdiction of
a given sovereign, so that the sovereign has the power to
subject the defendant to judgment concerning that
conduct.” Nicastro, 564 U.S. at 881, 884 (plurality op.).
Ford has followed precisely such a “course of conduct” id.,
by marketing, selling, and servicing the defective car
models in Montana and Minnesota and thereby
submitting itself to the authority of those states. No
existing principle of constitutional law requires that Ford
must, as a matter of due process, separately consent to a
state’s authority to “regulate” each individual car.
4. Nor is Ford’s causal test justified by the claim that
it will prevent defendants from being held liable under a
state’s laws unless the state is a place where the defendant
“took or aimed an action that ultimately led to the
plaintiff’s claim.” Pet. Br. 24. Ford repeatedly makes a
mistake that this Court has cautioned against, loosely
equating a state’s ability to provide a forum for its injured
citizens with its ability to “regulate” substantive conduct.
See, e.g., Pet. Br. at 25 (“If a State can exercise jurisdiction
over—that is, regulate—a defendant’s out-of-state
activity....”). But the issue of what substantive law governs
a defendant’s conduct is distinct from the question of

-32which states have personal jurisdiction over that
defendant. See, e.g., Keeton, 465 U.S. at 778 (“The issue is
personal jurisdiction, not choice of law.”). Ford and the
Solicitor General both argue as if the state where an
injury occurs has a legitimate interest only in regulating
a defendant’s conduct if that conduct took place in or was
“aimed at” the state. Pet. Br. 24; see also U.S. Br. 25.
But applying the choice-of-law standards that prevail
across the United States, Ford likely will be liable in these
cases under the laws of Minnesota and Montana no matter
where the cases are heard. See Restatement (Second) of
Conflict of Laws § 146. The Solicitor General argues
otherwise, pointing out (at 25) that most states have
abandoned the “bright-line rule” that torts are governed
by the law of the place of injury. But the very article it
cites for that proposition goes on to clarify that the erosion
of this bright-line rule has meant little “in terms of the
final choice of the law governing tort conflicts,” with the
states that have departed from the bright-line rule still
tending to “continue to apply the law of the locus delicti.”
Symeonides, The Choice-of-Law Revolution Fifty Years
After Currie, 2015 U. Ill. L. Rev. 1847, 1901-04. Across a
“comprehensive review of American products liability
conflicts cases,” “[s]eventy-seven percent of all cases
applied the law of a state that had only plaintiff-affiliating
contacts,” id. at 1900-01; the “only major departure” from
the traditional place-of-injury rule in tort cases more
broadly occurs when both the defendant and plaintiff
share a home state and the injury happened to occur
elsewhere. Id. at 1902-03.
Although the Solicitor General cites Section 145 of the
Restatement (Second) of Conflict of Laws for the general
rule according weight to “the place [where] the conduct”
giving rise to the injury occurred, U.S. Br. 25, he does not

-33mention that the very next section provides the rule that
specifically governs personal-injury cases: “the local law
of the state where the injury occurred determines the
rights and liabilities of the parties.” Restatement
(Second) of Conflict of Laws § 146. Despite the Solicitor
General’s assertion (at 25) that “the place of sale probably
has a greater interest” in these cases than Montana or
Minnesota, it is hard to imagine how North Dakota or
Washington—which have no relevant witnesses or
parties, where the injury did not occur, and where none of
the injured parties engaged in any transactions—could
have a stronger interest.
The upshot is that Ford’s ultimate liability risk in
these cases—and the risks of defendants in nearly all
cases like these—will be governed by the substantive law
of the place where an injury occurs. Id. This is true
regardless of whether Ford’s causal rule is adopted. As a
result, Ford’s stance (at 41) that its liability should depend
only on conduct that it “took inside or purposefully aimed
at a state” ignores the law that has long governed the
liability of defendants, including Ford, that sell their
products in interstate commerce. See MacPherson v.
Buick Motor Co., 111 N.E. 1050 (N.Y. 1916) (Cardozo, J.).
“Few matters could be deemed more appropriately the
concern of the state in which [an] injury occurs” than “the
bodily safety” of residents, and few things are “more
completely within its power.” Pacific Employers Ins. Co.
v. Industrial Accident Commission of State of Cal., 306
U.S. 493, 503 (1939). Ford’s causal test cannot change this
foundational principle.

-34C. Depriving injured forum residents of access
to their own courts would be manifestly
unfair.
Ford is also wrong that a causal test would do
anything to promote fairness. It would just shuffle claims
from the state where plaintiffs were injured to another
forum, like the state of first sale, that is no more
convenient for Ford but far more burdensome for
plaintiffs. The only advantage for Ford is an illegitimate
one: the possibility that the litigation burdens will be so
substantial that many plaintiffs will give up their claims.
1. Ford does not contend that litigating the plaintiffs’
claims in Minnesota or Montana would be an unfair
burden to Ford. Nor could it. Ford does not suffer any
hardship by litigating in states where it routinely does
business and defends itself from other lawsuits. Nor does
Ford argue that jurisdiction in, for example, Washington
or North Dakota—states with no real connection to the
case—would be any fairer or less burdensome.
Ford’s only fairness argument is that a strict causal
rule would give it “fair warning” of where it may be
subject to jurisdiction. Pet. Br. 26 (quoting Burger King,
471 U.S. at 472). But a causal test is not needed for a
product manufacturer like Ford to predict that it may be
subject to suit over an allegedly defective product in a
state where it extensively markets and sells that product.
The risk of lawsuits in these circumstances is not an unfair
surprise, but a predictable cost of doing business in the
forum. See Restatement (Second) of Torts § 402A (1965).
Ford asserts that its causal rule would allow it to
better predict its risk based on the “volume of its sales in
each State.” Pet. Br. 27 (emphasis added). The rule would,
in other words, allow it to more precisely tailor the
probability that it will be subjected to the jurisdiction of a

-35state by reducing its sales in that state, without having to
“entirely stop[] doing business” there. Id. at 28. But as
noted above, Minnesota and Montana law will govern
these lawsuits wherever they are held—so the state in
which the injury occurred will determine the amount of
Ford’s substantive liability even if its rule is adopted. This
Court, moreover, has never held that due process requires
that defendants have fine-grained control over a state’s
jurisdiction. Selling fewer cars of a specific model in a
state would in theory reduce the potential volume of
lawsuits there, but Ford is still on notice that it might be
sued. As long as Ford continues to deliberately target the
state as a market for a product, it has subjected itself to
the state’s jurisdiction for injuries related to that product.
It cannot claim surprise if it is held to account there.
2. Plaintiffs’ access to the courts of jurisdictions
where they reside and are injured, on the other hand,
directly serves their “interest in obtaining convenient and
effective relief.” Burger King, 471 U.S. at 477. It is there
that witnesses to the accident and other evidence will be
located. See Travelers Health Ass’n, 339 U.S. at 649; see
von Mehren, Jurisdiction to Adjudicate, 79 Harv. L. Rev.
at 1167 (“[C]onsiderations of litigational convenience,
particularly with respect to the taking of evidence, tend in
accident cases to point insistently to the community in
which the accident occurred.”). That forum is by far the
most convenient, not only for plaintiffs but also for instate defendants of all stripes, like local distributors or
retailers of a product.
In an ordinary car-accident case, plaintiffs may be
unable to “afford the expense and trouble” of suing in a
far-off forum. Travelers Health Ass’n, 339 U.S. at 649.
This Court’s personal-jurisdiction cases have traditionally
emphasized the “unwisdom, unfairness and injustice of

-36permitting [plaintiffs] to seek redress only in some distant
state.” Id. “The Due Process Clause does not forbid a
state to protect its citizens from such injustice.” Id.
D. In even the simplest cases, Ford’s proposed
rule would be unworkable, unpredictable, and
inefficient.
Ford primarily justifies its proposed causal rule by
arguing (at 14) that the rule “provides predictability for
defendants” and is “administrable.” But the opposite is
true. Under this Court’s existing test, Ford can easily
predict where it may be sued: It can be sued in a forum
for injuries caused in that forum by a product that it
regularly advertises and sells there. In contrast, even in
the most straightforward cases of the kind typically heard
in state courts, a causation requirement would turn that
simple test into an unmanageable one. Requiring
causation would also subject parties and courts to
burdensome preliminary and satellite litigation—all for
no good reason.
1.

Ford’s causation test is subjective,
difficult to apply, and would lead to
unpredictable and inconsistent results.

As then-Judge Gorsuch noted in examining personal
jurisdiction in Dudnikov v. Chalk & Vermilion Fine Arts,
Inc., “‘[t]here is perhaps nothing in the entire field of law
which has called forth more disagreement, or upon which
the opinions are in such a welter of confusion,’ as causation
doctrine.” 514 F.3d 1063, 1078 (10th Cir. 2008) (quoting
Prosser and Keeton on the Law of Torts 263 (5th ed.
1984)). Ford makes little effort to explain the proper
standard of causation under its test, arguing that “this
Court need not answer that question here.” Pet. Br. 42.

-37All Ford has to say about its proposed test is that it is
based on the “proximate cause” standard from tort law.1
It is one thing to apply a proximate-cause standard to
liability in tort, or in analogous statutory contexts where
the Court treats the liability concept as a background
principle. In such cases, courts may be guided by longestablished common-law applications that provide some
measure of predictability. But it is another thing entirely
to import the test where there is no similar common-law
background of a proximate-causation standard for
personal-jurisdiction cases. That means that courts would
be entirely at sea—and that if the Court adopts Ford’s
test, it is signing itself up for a steady stream of cases
asking it to resolve the inevitable conflicts that will arise.
Even when applied to traditional liability questions,
the “term ‘proximate cause’ does not easily lend itself to
definition.” McBride v. CSX Transp., Inc., 598 F.3d 388,
393 n.3 (7th Cir. 2010). In torts, the test asks little more
than whether the “legal system wishes to assign at least
partial responsibility for an accident” to the defendant.
Calabresi, Concerning Cause and the Law of Torts, 43 U.
Chi. L. Rev. 69, 72 (1975). The standard is inherently
subjective—more a value judgment than an actual test.
And “despite the manifold attempts which have been
made to clarify the subject,” there is no “general
agreement as to the best approach.” Prosser and Keeton
on the Law of Torts 263. Proximate cause is thus “elusive,”

1

Ford is correct to reject but-for causation as a “vastly
overinclusive” alternative. Pet. Br. 43. That test has “no limiting
principle; it literally embraces every event that hindsight can logically
identify in the causative chain.” Nowak v. Tak How Invs., 94 F.3d 708,
715 (1st Cir. 1996).

-38and “hardly a rigorous analytic tool.” Blue Shield of
Virginia v. McCready, 457 U.S. 465, 477 n.13 (1982). 2
In car-accident cases like those here, countless
problems might complicate the proximate-cause inquiry.
What if a mechanic who inspected the car after the
plaintiff’s purchase failed to notice and fix the problem? Is
his negligence an independent act that breaks the chain of
responsibility? See Sinram v. Pa. R.R. Co., 61 F.2d 767
(2d Cir. 1932) (Hand, J.). What if the accident occurred
only because another driver was driving negligently, or
because the plaintiff failed to follow a safety warning? Or
what if the accident was precipitated by an additional
defect for which the car’s manufacturer was not
responsible? See Seward v. Minneapolis St. R.R. Co., 25
N.W.2d 221 (Minn. 1946). That last question is not a
hypothetical: The defect that caused Gullett’s death in
Montana was the dangerous tendency of Ford Explorers
to roll over, but the rollover also happened because a
separate defect caused one of the car’s Goodyear tires to
fail. Under Ford’s standard, these vexing questions would
become jurisdictional, needing to be settled not just to
decide liability but to determine the right forum. Because
the power of the proximate-cause test to answer questions
2

Ford responds (at 15) that lower courts “have required a causal
test for years … without issue.” But none of the courts Ford identifies
has adopted the rigid proximate-cause test it asks for. The First
Circuit, for example, has expressly disclaimed such a test, holding
that “strict adherence to a proximate cause standard ... is
unnecessarily restrictive.” Nowak, 94 F.3d at 715. That court actually
follows a “flexible, relaxed standard,” requiring only that “the nexus
between the contacts and the cause of action is sufficiently strong.”
Id. at 715-16. Its use of the words “proximate cause,” it has explained,
is meant only to “correlate[] to foreseeability, a significant component
of the jurisdictional inquiry.” Id.; see 19-368 BIO 17-18 (discussing
other cases).

-39like these typically proves illusory, courts are likely to
“come out every which way.” Calabresi, Concerning
Cause, 43 U. Chi. L. Rev. at 99-100.
Even if a causation-based rule made sense in theory,
it would be unworkable because there will often be no way
for plaintiffs to determine the site of the first sale of a
particular defective product—either before they must sue
or, often, even after discovery. In the modern economy,
products are assembled from components made around
the world. See Campbell, Why no one knows the source of
every car part—and why it matters, Financial Times,
Feb. 20, 2020. Some products are impossible to trace to
their original point of sale. Tires of the same size and
brand, for example, are marked with Department of
Transportation numbers that show the particular week
they
were
manufactured.
See
Robinson
v.
Bridgestone/Firestone North American Tire, L.L.C., 703
S.E.2d 883, 887 (N.C. Ct. App. 2011). But because these
codes are not unique, a tire manufacturer often cannot
pinpoint where a particular tire was first sold—it can be
simply “impossible to track a particular tire.” Id.
In many cases, even discovery will not solve that
problem. Because of the complex global supply chain, “no
one, anywhere, actually knows where every single one of
the 3,000 parts that go into the average car comes from.”
Campbell, Why no one knows the source of every car part.
Under a causal rule linked solely to the location of design,
manufacture, or sale of a defective part, it could be
impossible to determine in a particular case whether
jurisdiction is proper.
2.

Ford’s rule would lead to wasteful
preliminary and duplicative litigation.

Personal jurisdiction is supposed to be “resolved
expeditiously at the outset of litigation.” Daimler AG, 571

-40U.S. at 139 n.20. But causation is usually a disputed
issue—often the main disputed issue. As the Solicitor
General explains (at 31), “[i]nquiries into causation can
raise complex factual questions that typically go to the
merits” and are often decided by the jury. Tying
jurisdiction to causation would require extensive
preliminary discovery and litigation on those questions
before a case could even get started.
A causation-based rule would also be inefficient,
requiring even simple disputes to be litigated separately
in cases around the country. Even in basic tort cases
involving one plaintiff’s injury, there are typically
multiple
defendants—for
example,
the
car’s
manufacturer, the manufacturer of a component like a
tire, other drivers who contributed to the accident, those
drivers’ employers, or any of these parties’ insurers. Until
now, these claims would often proceed together efficiently
in one case. Under Ford’s causation approach, it would
often be the case that no forum would have jurisdiction
over all defendants, necessitating separate suits in
different forums to litigate overlapping issues.
Mr. Bandemer, for example, sued not only Ford but
also the car’s Minnesota-based driver and owner. If he
were forced to sue Ford in North Dakota (the state of first
sale), he would be unable to join the Minnesota
defendants. He would thus have to file two cases—one
against Ford in North Dakota and one against the other
defendants in Minnesota. Similarly, the Montana plaintiff
sued Ford, which made the car; Goodyear, the Ohio
corporation that made the tires; and several other
defendants that reside in Montana, Maryland, and
Washington. A causation rule could thus require suits in
as many as five jurisdictions. That would not only be
extraordinarily burdensome for plaintiffs but would also

-41waste judicial resources, create a risk of inconsistent
judgments, and harm the states’ “substantial interest in
cooperating with other States ... to provide a forum for
efficiently litigating all issues and damage[s] claims”
together in a single location. Keeton, 465 U.S. at 777.
Given the burden that filing suit in multiple
inconvenient jurisdictions would impose on an accident
victim, many plaintiffs may forgo suing non-resident
defendants altogether—leaving local citizens and in-state
businesses with disproportionate liability. A plaintiff who
purchased a defective product might, for example, sue
just the retailer under a joint-and-several liability theory,
leaving the out-of-state manufacturer out of the case. See
Norfolk & W. Ry. Co. v. Ayers, 538 U.S. 135, 163-64 (2003).
Defendants in those circumstances can typically protect
themselves with third-party claims against other
responsible parties. But Ford’s rule would often mean
that those third parties are not subject to jurisdiction in
the forum, making it impossible for local defendants to
bring them into the case. See 6 Wright, et al., Federal
Practice and Procedure § 1445 (3d ed. 2012). Ford’s rule
would often thus require local defendants to travel to
other forums to initiate a new round of litigation—or get
left holding the bag.
*

*

*

These examples are just the tip of the iceberg. Ford
offers this Court “a rule of broad applicability,” Nicastro,
564 U.S. at 887 (Breyer, J., concurring). But Ford has said
almost nothing about how it would work in practice, in
contexts ranging from property to child support, from
probate to contract law. Adopting such a rule requires
“full consideration of the modern-day consequences.” Id.
at 887. If adopted, it would cause serious problems in
everyday litigation for years to come. U.S. Br. 31. This

-42Court’s relatedness standard, by contrast, applies well
across contexts and promotes, rather than undermines,
the values of fairness, federalism, and predictability that
due process protects.
III. The consequences Ford attributes to a non-causal
relatedness standard are hyperbolic and avoidable.
Ford’s brief manufactures a parade of horribles that
it attributes to any non-causal test, which Ford argues
would fail to provide notice, Pet. Br. 27; “nullif[y]”
territorial limitations on state power, id. at 25; and
conflate specific and general jurisdiction, id. at 30-31. But
Ford’s arguments are built around a straw man: the idea
that any non-causal test is equivalent to a vague standard
that Ford may “be sued on car-related claims anywhere it
does car-related business.” Id. at 29. This Court need not
adopt such a rule to reject Ford’s arguments. Just as Ford
argues that adopting a causation standard does not mean
that any causal relationship is sufficient, Pet. Br. 42-45,
adhering to the traditional non-causal standard does not
mean that any non-causal relationship is sufficient.
Ruling for the respondents requires holding only that
where a product has caused an injury in a forum state, and
the defendant has systematically cultivated a market for
that product in the state, jurisdiction over the defendant
for claims arising from that injury is appropriate.
1. There is a simple test that defendants could follow
to determine their potential to face suit: If a defendant
deliberately cultivates a given state as a market for a
product, it may be sued in that state for injuries caused in
that state by that product. That rule gives “fair warning”
to defendants based on their own “purposefully directed”
conduct that “create[s] continuing relationships and
obligations with citizens of another state.” Burger King,
471 U.S. at 472-73. And it provides “constitutionally

-43sufficient notice” by allowing defendants to structure
their “primary conduct with some minimum assurance” as
to where their conduct will open them to suit. Pet. Br. 29.
A defendant’s choice to cultivate a market for its product
in a forum is not the “unilateral activity” of a third party.
Pet. Br. 33. It is entirely within the defendant’s control. If
a defendant wishes to avoid being subject to suit in a given
forum for injuries arising in that forum from its products,
it may refrain from selling its products in that forum.
2. Nor does a ruling for the respondents mean that
“territorial limitations on state power would be nullified.”
Pet. Br. 25. Ford again relies on its straw-man theory of
relatedness to argue that any non-causal standard would
be a “jurisdictional free for all” in which any large
company can be sued “on any claim for relief, wherever its
products are distributed.” Id. at 25-26. Not so. Rejecting
Ford’s theory still permits a rule that restricts
jurisdiction to states in which a defendant chooses to
regularly market a product. No state would have the
authority “to enforce ‘obligations’ that arose entirely
outside its boundaries.” Id. at 25 (quoting International
Shoe, 326 U.S. at 319-20).
3. Ford is also wrong to argue that a non-causal
standard is analogous to a “sliding scale approach” that is
merely “a loose and spurious form of general jurisdiction.”
Bristol-Myers, 137 S. Ct. at 1781. A sliding scale approach
veers toward general jurisdiction because it relaxes “the
strength of the requisite connection between the forum
and the specific claims at issue” on the basis of “contacts
that are unrelated to those claims.” Id. But Ford’s
contacts with Minnesota and Montana are related to the
claims in these cases. Ford sold the product at issue in the
state where the injury occurred—unlike the claims

-44rejected in Bristol-Myers, which did not arise out of instate injuries.
4. Resolving this case in respondents’ favor does not
require this Court to rule on “foreseeability” under a
“stream-of-commerce” approach. Pet. Br. 29. So-called
“stream of commerce” analysis refers to the possibility
that a court may conclude that a defendant has
purposefully availed itself of a state by “placing goods into
the stream of commerce ‘with the expectation that they
will be purchased by consumers in the forum State.’”
Nicastro, 564 U.S. at 881-82 (plurality). But in this case, it
is already clear (and conceded) that Ford has purposefully
availed itself of the forum states. The question presented
here is whether Ford’s purposeful availment is rendered
irrelevant by the fact that the first sale of these particular
cars occurred outside the forum. The Court need not
reach the separate question of whether Ford’s sale of the
specific cars at issue could itself constitute purposeful
availment based solely on the reasonable foreseeability
that the cars would end up in the forum states.
5. Finally, Ford’s proposed standard is not only
unworkable but also unnecessary because numerous
existing doctrines adequately protect defendants from
overly aggressive exercises of jurisdiction.
For starters, even where the first two specificjurisdiction requirements are met, due process still
requires assessing “other factors” to determine if
jurisdiction is reasonable. Burger King, 471 U.S. at 476.
These include “the burden on the defendant, the interests
of the forum State, and the plaintiff’s interest in obtaining
relief,” “the interstate judicial system’s interest in
obtaining the most efficient resolution of controversies,”
and “the shared interest of the several States in
furthering fundamental substantive social policies.”

-45Asahi Metal Indus. Co. v. Sup. Ct. of Cal., Solano Cnty.,
480 U.S. 102, 113 (1987). These factors prevent state
courts from exercising jurisdiction when contacts
between the defendant and the forum are attenuated. Id.
at 116.
In addition, concerns about litigating in inconvenient
or unfair forums “usually may be accommodated through
means short of finding jurisdiction unconstitutional.”
Burger King, 471 U.S. at 477. For example, states’ choiceof-law rules will sufficiently “put[] defendants on notice of
where they might be liable and on what claims.” Pet. Br.
27; see Burger King, 471 U.S. at 477. The forum non
conveniens doctrine prevents defendants from being
required to litigate in a forum that would cause particular
inconvenience or expense. See Gulf Oil Corp. v. Gilbert,
330 U.S. 501, 508-509 (1947). In virtually all states,
defendants may seek dismissal where the convenience of
the litigants and witnesses, access to evidence, and the
interests of justice would be better served by a change in
forum. See, e.g., San Diego Gas v. Gilbert, 329 P.3d 1264,
1271 (Mont. 2014); Paulownia Plantations de Panama
Corp. v. Rajamannan, 793 N.W.2d 128, 133 (Minn. 2009).
To the extent that Ford’s policy concerns about unfair
exercises of state-court jurisdiction cannot be addressed
by existing doctrines, Congress and state legislatures are
better situated to address them than the judiciary.
Weighing corporate defendants’ desire to avoid litigation
against states’ and citizens’ interests in health and safety
is better left to legislators, who can amend long-arm
statutes in accordance with the democratic process—not
through the Constitution.
CONCLUSION
The judgments of the Supreme Courts of Montana
and Minnesota should be affirmed.

-46Respectfully submitted,
DEEPAK GUPTA
Counsel of Record
DANIEL WILF-TOWNSEND
GREGORY A. BECK
LARKIN TURNER
GUPTA WESSLER PLLC
1900 L Street, NW, Suite 312
Washington, DC 20036
(202) 888-1741
deepak@guptawessler.com
JENNIFER BENNETT
NEIL K. SAWHNEY
GUPTA WESSLER PLLC
100 Pine Street, Suite 1250
San Francisco, CA 94111
(415) 573-0336
KYLE W. FARRAR
WESLEY TODD BALL
MARK BANKSTON
KASTER, LYNCH, FARRAR
& BALL, LLP
1117 Herkimer Street
Houston, TX 77008
(713) 221-8300
DENNIS P. CONNOR
KEITH D. MARR
CONNER & MARR PLLP
520 Third Avenue North
Great Falls, MT 59403
(406) 727-3550

March 30, 2020

Counsel for Respondents

